No.

3fn Clje

Supreme Court of tfje QHntteb
States
Adriano Kruel Budri,
Petitioner,
V.

Administrative Review Board,
United States Department of Labor,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for 5th Circuit
PETITION FOR WRIT OF CERTIORARI
Adriano K. Budri
Petitioner Pro Se
5029 County Road 605
Burleson, TX 76028-1177
Phone (817) 447-3868
Email address: budri@sbcglobal.net

1

QUESTION PRESENTED FOR REVIEW

1) Whether the Panel of the U. S. Court of Appeals
for 5th Circuit has provided legal guidance about the
safety related issue of logging time for repair a
commercial motor vehicle in the category on duty not
driving time status regulated by the transportation
regulations and under coverage of the protected
activity provision of the 49 U.S.C.A. §31105(a)(1)(C)
of the STAA (Surface Transportation Assistance
Act)?

11

RELATED CASES
There is not related cases found and concerning the
question of law and fact in this particular safety
related issue of logging time for repair a commercial
motor vehicle in the category on duty not driving
time status regulated by the transportation
regulations and under coverage of the protected
activity provision of the 49 U.S.C.A. §31105(a)(I)(C)
of the STAA (Surface Transportation Assistance Act)
for
commercial
driver
employee
protection
provisions.

Ill

TABLE OF CONTENTS
Page
Question Presented

1

Related Cases

n

Table of Contents

in

Appendix

IV

Table of Authorities

v, vi

Opinions below

1,2

Jurisdiction

3

Statutory and Regulatory Provisions
Involved............ ......................................

3

Introduction

4

Statement of Facts

4

Argument

8

Conclusion

15

IV

APPENDIX
App.l: The Panel of the Court of Appeals for 5th
A1
Circuit denied the Petition for Review
App.2: The Panel of the Court of Appeals for 5th
Circuit denied the Petition for Panel Rehearing...A6
App.3: The Panel of the Administrative Review
Board of U. S. Department of Labor affirmed the
Administrative Law Judge’s Decision and Order for
a Summary Decision and dismissed the de novo
administrative case with prejudice
A7
App.4: The Administrative Law Judge’s Decision
and Order has granted the Respondent’s Motion for
Summary Decision and dismissed with prejudice the
de novo Administrative Complaint
A15
App.5: Surface Transportation
(STAA) Federal Statute

Assistance

Act
A41

App.6: FIRSTFLEET’S Employee Handbook Page
No.55, On Duty Time Status Company Policy..... A47
App.7: 49 U. S. C. Chapter 315: MOTOR CARRIER
A50
SAFETY

V

TABLE OF AUTHORITIES
Cases:
Adriano Budri, Complainant, v. First Fleet, Inc,
Respondent, ALJ Case No: 2017-STA-00086
10
Adriano Budri, Complainant, v. First Fleet, Inc,
12
Respondent, ARB Case No. 18-025
Blackann v. Roadway Express, Inc., ARB Case No.
11
02-115
Blackann v. Roadway Express, Inc., 159 Fed. Appx.
704 (6th Cir. 2005)
12
Budri v. Admin. Review Bd., U.S. CO A for 5th Circuit
Case No. 18-60579
3
Osha -Firstfleet, Inc (DOT#313891)/BUDRI/4-176017-060
5
Owner-Operator Independent Drivers Association,
Inc., Mark Elrod, and Richard Pingel, Petitioners, v.
United States Department of Transportation et al.,
Respondents, U. S. COA for 7th Circuit, Case No. 153756
11
Shawn Jennings, Complainant v. McLane Company,
Inc, Respondent, ALJ Case No. 2017-STA-00009.....9

VI

TABLE OF AUTHORITIES Cont.

Federal Rules:
28 U. S.
49U. S.
49 U. S.
49 C. F.
49 C. F.

C.
C.
C.
R.
R.

1254(1).................
§31105 .................
§31105(a)(1)(c).....
§395.2 Definitions
Part 395.8 (2017) .

3
3
i, 1,3,7,8,13,14,15
4,8
13

State Rules:
Texas Administrative Code for HOS

8

Miscellaneous:
62 Fed. Reg. 16370, 16422

6,11

1
OPINIONS BELOW
App.l: The Court of Appeals for 5th Circuit denied
the Petition for Review and silenced about the
logging time for repair a commercial motor vehicle in
the category on duty not driving time status as
safety related issue and being a mandatory HOS
(Hours of Service) for transportation regulations
under the protection within the meaning of 49
U.S.CA. §31105(a)(1)(C). Al
App.2: The Court of Appeals for5th Circuit denied
the Petition for Panel Rehearing and silenced about
the logging time for repair a commercial motor
vehicle in the category on duty not driving time
status as safety related issue and being a mandatory
HOS (Hours of Service) for transportation
regulations under the protection within the meaning
of 49 U.S.CA. §31105(a)(1)(C). A6
App.3: The decision and order of the Administrative
Review Board of U.S. DOL has issued an opinion
about the logging time for repair a commercial motor
vehicle in the category on duty not driving time
status that is a protected activity within the
meaning of 49 U.S.C.A. §31105(a)(I)(C), and it is a
genuine issue for trial as safety related and when a
commercial driver employee has accurately logged
the daily service hours and in compliance with the
mandatory HOS (Hours of Service)regulated by the
transportation regulations. A7
App.4: The decision and order of the Administrative
Law Judge issued an opinion that the logging time
for repair a commercial motor vehicle in the category

2
OPINIONS BELOW Cont.
on duty not driving time status in the mandatory
HOS (Hours of Service) is “an employer’s choice” and
it is not a protected activity under the STAA. A15
App.5: Surface Transportation
(STAA) Federal Statute. A41

Assistance

Act

App.6: FIRSTFLEET’S Employee Handbook Page
No.55, On Duty Time Status Company Policy. A47
App.7: 49 U. S. C. Chapter 315: MOTOR CARRIER
SAFETY. A50

3
JURISDICTION
The Panel of the Court of Appeals for 5th Circuit
denied a discretionary review of the final
administrative decision order issued by the ARB
(Administrative Review Board) of U. S. DOL and
entered a decision and order on April 9, 2019.Budri
v. Admin. Review Bd., No. 18-60579 (5th Cir. Apr. 9,
2019) (per curiam) (unpublished) (2019 U.S. App.
LEXIS 10419).
The Panel of the Court of Appeals for 5th Circuit
denied a Petition for Panel Rehearing for a
discretionary review of the final administrative
decision order of ARB (Administrative Review
Board) of U.S. DOL and entered a decision and order
on April 29, 2019,
Petitioner invokes the jurisdiction of this Court
under 28 U.S.C. 1254(1) and for a discretionary
review about the applicability of the federal
statutory STAA (Surface Transportation Assistance
Act) provision: 49 U.S.C.A. §31105(a)(1)(C) and when
the commercial driver employee has accurately
reported hours on duty under the protected activity
of the STAA as a safety related matter and being a
genuine issue for trial.
STATUTORY AND REGULATORY
PROVISIONS INVOLVED
Surface

Transportation

Assistance

49 U.S.C. §31105 Employee protections:

Act

(STAA)

4
(C) The employee accurately reports hours on duty
pursuant to chapter 315.
49 CFR §395.2 definitions: On-duty time is all time
from when a driver begins to work or is required to
be in readiness to work until the driver is relieved
from work and all responsibility for performing
work. On-duty time includes: All time repairing,
obtaining assistance, or remaining in attendance
upon a disabled Commercial Motor Vehicle (CMV).
INTRODUCTION
In order to promote protection for Commercial Truck
Drivers CDL Class A Employees in the United
States, Congress enacted the Surface Transportation
Assistant Act, and to avoid abuse from commercial
motor carrier employers about the violation of the
daily HOS (Hours of Service) and other safety issues
related with the commercial motor vehicle safety
regulations in interstate and intrastate commerce.
STATEMENT OF FACTS
On January 25, 2017, Petitioner was hired as an
intrastate commercial truck driver CDL Class A in
Texas as full time employee from the commercial
motor carrier employer FIRSTFLEET, INC.
In his period of the safety sensitive function
employment, the petitioner has noticed safety
violations regarding the current FMCSR, and the
Texas Administrative Code enforced by the Texas
Department of Public Safety for intrastate

5
commercial truck drivers CDL Class A in the State
of Texas.
In the administrative complaint filed before the
agency
Occupational
Safety
and
Health
Administration (OSHA) of the U. S. Department of
Labor, Petitioner has alleged protected activities
under the federal statutory Surface Transportation
Assistance Act (STAA), Complaint No: OSHAFIRSTFLEET, INC (D0T#313891)/BUDR1/4-176017-060.
OSHA as agency in charge of the U.S. DOL to
enforce the statute STAA has admitted in the
investigation findings report about the HOS (Hours
of Service) violation reported by the Petitioner, but
dismissed the petitioner’s administrative complaint
and noticed a time frame within 30 days to the
petitioner to file a de novo administrative complaint
before the Office of the Administrative Law Judges
of U. S. Department of Labor and with the right for
discovery and one evidentiary hearing.
Petitioner has filed a de novo administrative
complaint within 30 days time frame permitted by
the federal statute STAA.
The Administrative Law Judge Larry W. Price has
been assigned for de novo administrative complaint
and having concluded in his summary decision and
without a evidentiary hearing recorded occurred that
the petitioner had engaged in certain protected
activities during the course of the employment with
the commercial motor carrier FIRSTFLEET, INC,
but having the ALJ abused of his discretion of

6
concerning the interpretation of the mandatory
HOS (Hours of Service) rule for Commercial Truck
Driver employees and in flagrant collision with the
current mandatory HOS (Hours of Service) regulated
by the agency Federal Motor Carrier Safety
Administration (FMCSA) of U.S. Department of
Transportation for interstate commerce and by the
Texas Administrative Code and enforced by the
Texas Department of Public Safety for intrastate
commerce in the State of Texas.
The ALJ has written in his summary decision that
the mandatory HOS (Hours of Service) for
commercial driver employees is an “employer’s
choice” as a “Company Policy” for the specific
categories: Off Duty Time Status and On Duty Not
Driving Time Status, and misleading the
interpretation of one federal regulatory guidance
issued by the FMCSA on 04/04/1977 for meal stops
as off duty time status in order for a commercial
motor vehicle (CMV) driver to record meal and other
routine stops made during a work shift as off-duty
time.
The federal regulatory guidance 62 Fed. Reg. 16370,
16422 has been issued to clarify the break time
status for interstate commercial drivers as off duty
time status and when a commercial driver shows
fatigue or simply stop for a meal stop for 30 minutes
as a break time status and having to log as off duty
time status that specific period of the time and if the
commercial truck driver is working in interstate
commerce.

7
The ALJ Larry W. Price has misled the safety
related mandatory HOS (Hour of Service) category
for on duty not driving time status for all time
repairing a commercial motor vehicle, and that is a
mandatory in federal and state transportation
regulation and not being “an employer’s choice” as
“Company Policy”.
With the ALJ’s misleading summary decision and
dismissed de novo the administrative complaint,
then the petitioner had 30 days permitted of the
time frame from the date of ALJ’s “D & O” issued
and to file an Administrative Petition for Review
before the Administrative Review Board. The
petitioner has filed in a timely manner before the
Administrative Review Board of United States
Department of Labor, one Administrative Petition
for Review.
The Panel of the ARB (Administrative Review
Board) has granted the Petition for Review and
having affirmed in a discretionary administrative
review the overall ALJ’s decision, but having
disagreed in relation the ALJ’s decision of logging
time for repair a commercial motor vehicle in the
safety related category on duty not driving time
status.
The ARB has categorically stated that is a safety
related and one genuine issue for trial and that the
commercial driver employee was under the
protective activity by the STAA49 U.S.C.A.
§31105(a)(1)(C) provision and when he has raised
valid safety concerns in a workplace discussion with
the supervisor about the mandatory HOS (Hours of

8
Service) in Texas and for intrastate commercial
driver employees.
Considering the flagrant discrepancy opinions and
issued from (02) two administrative adjudicatory
agencies of U. S. DOL about the protected activity
provision of the 49 U.S.C.A. §31105(a)(I)(C) and
having been enacted by the Congress and under the
coverage of the federal statutory STAA provision,
then the Petitioner sought a discretionary review
before the Court of Appeals for 5th Circuit, which
denied a Petition for Review and not having issued a
legal guidance about the logging time for repair a
commercial motor vehicle in the category on duty not
driving time status as safety related and being a
genuine issue for trial under the protected activity of
the statute STAA for commercial driver employee
protection provisions.
ARGUMENT
Petitioner asks this Court to grant the Petition for a
Writ of Certiorari to reason that commercial driver
employee who logs accurately the daily mandatory
HOS (Hours of Service) is a safety related matter
and a genuine issue for trial and it is a protected
activity under the STAA provision 49 U.S.C.A.
§31105(a)(1)(C) for interstate and intrastate
commerce transportation regulations for commercial
truck drivers.
The FMCSA for interstate commerce and the Texas
Administrative Code for intrastate commerce specific
clearly what means the category on duty time in the
49 CFR §395.2 definitions:

9
On-duty time is all time from when a driver begins
to work or is required to be in readiness to work
until the driver is relieved from work and all
responsibility for performing work.
On-duty time includes: All time repairing, obtaining
assistance, or remaining in attendance upon a
disabled Commercial Motor Vehicle (CMV).
The category on duty time is identical from the
Federal Motor Carrier Safety Administration
regulation for interstate commerce and from the
Texas Administrative Code as regulation for
intrastate commerce.
On 05/04/2017, In the Matter of Shawn Jennings,
Complainant u. McLane Company, Inc, Respondent,
ALJ Case No. 2017-STA-00009, one Decision and
Order has been dated, issued and assigned by the
ALJ Larry W. Price of the United States Department
of Labor, and involving directly the federal statute
STAA (Surface Transportation Assistance Act) and
the mandatory HOS (Hours of Service) for
commercial driver employees with a private
commercial motor carrier employer in the trucking
employment business. The ALJ Larry W. Price has
issued the following opinion (“D & 0”) onthe page
number 2 about the mandatory HOS (Hour of
Service) for commercial driver employees with that
commercial motor carrier employer called McLane
Company.

10
III. UNDISPUTED MATERIAL FACTS As to
Element (2), the undisputed material facts are these:
1. As a commercial motor carrier, Respondent must
comply with the Department of Transportation
Federal Motor Carrier Safety Administration's
hours-of-service regulations. These regulations
require a carrier's drivers to record their duty status
on their driving logs.
In resume, the ALJ Larry W. Price has admitted in
his Decision and Order’s opinion issued and dated on
05/04/2017 as undisputed material facts that an
commercial motor carrier as employer and
respondent must comply with the transportation
regulations for HOS (Hour of Service) and that is not
... “an Employer’s Choice” as a mere “an Company
Policy”and much less “an Fleet Manager’s Choice”...,
and it is in fact a mandatory transportation
regulation and for public safety matter and being a
protected activity for commercial driver employees
under the federal statute
STAA (Surface
Transportation Assistance Act).
On 02/08/2018, in the Matter of Adriano Budri,
Complainant, v. FIRSTFLEET, INC, Respondent,
ALJ Case Number: 2017-STA-00086, also assigned
by the ALJ Larry W. Price, the ALJ has changed
drastically his Decision and Order opinion about the
mandatory HOS (Hour of Service) for commercial
driver employees and having misled a federal
guidance dated on 04/04/1977, and when did not
exist in that time the ELD (Electronic Logging
Device) installed in the truck’s cabs for mandatory
electronic driver’s daily hours of service logs as a
mandatory transportation regulations prescribed by

11
U. S. DOT and FMCSA for interstate commercial
drivers and from the State Transportation
Regulations for intrastate commercial drivers and
having been recognized by the U. S. Court of Appeals
for the 7th Circuit in Decision and Order dated on
10/31/2016,
See: Owner-Operator Independent
Drivers Association, Inc., Mark Elrod, and Richard
Pingel, Petitioners, v. United States Department of
Transportation et al., Respondents, Case No. 153756, and from on petition for review of the final rule
of the Federal Motor Carrier Safety Administration.
FMCSA-2010-0167.
Below an excerpt text from the ALJ Larry W. Price’s
Decision & Order on the page number 7 for protected
activity:
The Logging of Time Spent in Maintenance:
Complainant had a discussion with Humphreys
regarding logging his time while repairs were being
completed on his vehicle. The issue discussed was
whether Complainant should log in as “On Duty Not
Driving” or as “Off Duty” and whether Texas or U. S.
DOT regulations governed. As noted in Blackann v.
Roadway Express, Inc., ARB Case No. 02-115 (Jun.
30, 2004), federal guidance provides that “it is the
employer’s choice whether the driver shall record
stops made during a tour of duty as off-duty time.” 62
Fed. Reg. 16370, 16422 (Apr. 4, 1977). The ARB held
that this dispute involved company policy, not any
conduct that is protected by the Act. On appeal, the
Sixth Circuit affirmed the ARB, stating the ARB
correctly noted that the regulations explicitly leave it
to the employer to determine the manner of
recording tour of duty time and that Roadway’s time

12
log policies did not force Blackann to violate any
federal regulation. Blackann v. Roadway Express,
Inc., 159 Fed. Appx.704 (6th Cir. 2005). I find that
Complainant’s
discussion
with
Humphreys
regarding logging his time was not protected
activity.
On 06/19/2018, In the Matter of Adriano Budri,
Complainant v. FIRSTFLEET, INC, Respondent,
ARB Case No. 18-025, the Panel of Administrative
Review Board of United States Department of Labor
has disagreed with the ALJ Larry W. Price’s
Decision & Order about the Logging of Time Spent
in Maintenance was not protected activity. The
Panel of ARB has stated clearly that is protected
activity and it is strictly regulated by the
transportation regulations and it is a genuine issue
and it is a safety related matter and under the
protected activity of the federal statutory STAA
(Surface Transportation Assistance Act) for
commercial driver employee protection provisions.
Below an excerpt text of the Final Decision & Order
and issued by the ARB of U.S. DOL, and dated on
06/19/2018, on the page number 2 for causation,
footnote number 5.
The ALJ held that Budri engaged in protected
activity on January 30, 2017 when he reported a
burned out bulb but that the evidence regarding
Budri’s February 8, 2017 discussion about how to log
time while waiting for repairs did not constitute
protected activity. We disagree with the latter
finding. In the course of his discussion with his
manager about how to log time, Budri insisted that

13
the direction he was given regarding logging time
violated state or federal transportation regulations.
Department of Transportation regulations limit the
hours of service for drivers and to ensure compliance
drivers are required to record their duty status for
each 24 hour period. 49 C.F.R. Part 395.8 (2017).
Because hours of service are strictly regulated and
the regulations distinguish between off-duty and onduty (not driving), complaints about how a driver
records driving time, it seems to us, are safety
related. Also, STAA provides that a driver is
protected when he “accurately reports hours on duty
pursuant to chapter 315.” 49 U.S.C.A. § 31105
(a)(1)(C). We find that the evidence regarding
Budri’s discussion about logging time presents a
genuine issue for trial as to whether it constituted
protected activity.
On April 9, 2019, about the denial of the petition for
review, the Panel of the U. S. COA for 5th Circuit
kept silenced and not having issued an opinion and
much less a legal guidance for lower courts about the
Logging of Time Spent in Maintenance and if it is a
protected activity or not for commercial driver
employees pursuant to chapter 315. 49 U.S.C.A. §
31105 (a)(1)(C) of the federal statute STAA (Surface
Transportation Assistance Act) and being a
mandatory transportation regulation for interstate
and intrastate commerce.
On April 29, 2019, about the denial of the petition
for panel rehearing, the Panel of the U. S. COA for
5th Circuit for more one time kept silenced and not
having issued an opinion and much less a legal

14
guidance for lower courts about the Logging of Time
Spent in Maintenance and if it is a protected activity
or not pursuant to chapter 315. 49 U.S.C.A. § 31105
(a)(1)(C) of the federal statute STAA (Surface
Transportation Assistance Act)and being
a
mandatory transportation regulation for interstate
and intrastate commerce.
It is clear that the Administrative Law Judge Larry
W. Price of the United States Department of Labor
and located at Covington District Office in Louisiana
need a legal guidance from the Supreme Court of the
United States and concerning the mandatory HOS
(Hour of Service) as protected activity for commercial
driver employee protection provisions of the federal
statute STAA (Surface Transportation Assistance
Act) and when a Fleet Manager of the FIRSTFLEET,
INC, as a private commercial motor carrier
employer, the respondent violates flagrantly the
mandatory HOS (Hour of Service) and illegally
enticed and induced the commercial driver employee
to violate the daily mandatory HOS (Hour of Service)
in the category On Duty Not Driving Time Status for
All Time Repairing a Commercial Motor Vehicle, and
that is strictly regulated by the transportation
regulations from the federal government and state
governments, and not being in any way an
“employer’s choice” the category On Duty Not
Driving Time Status for All Time Repairing a
Commercial Motor Vehicle, and not having been the
commercial driver employee relieved for the job by
the employer and during his daily On Duty Working
Activity Journey.

15
CONCLUSION
Petitioner respectfully requests that the Supreme
Court should grant this Writ for Certiorari and to
provide legal guidance for the lower courts about the
federal statute STAA (Surface Transportation
Assistance Act) of the 49 U.S.C.A. §31105(a)(1)(C),
and whose provision is a safety related matter, also
an genuine issue for trial, and a protected activity
for commercial truck driver employees that are
victims of the abuse, misuse and arbitrary illegal
orders given from fleet managers of the private
commercial motor carrier employers and that affect
directly the safety livelihood of the commercial truck
driver employees. Also, the legal guidance would be
properly addressed to the Occupational, Safety and
Health Administration, Office of Administrative Law
Judges, and the Administrative Review Board of the
United States Department of Labor.

Dated: 08/12/2019
Respectfully submitted
Adriano Kruel Budri
5029 County Road 605
Burleson, TX 76028, Phone (817) 447-3868
Email address: budri@sbcglobal.net
Petitioner Pro Se

